No.

IN THE
Supreme Court of the United States

TAMI L. MITCHELL,
Petitioner,
v.
THOMAS M. DILLAHUNT,
Respondent.

CERTIFICATE OF SERVICE
I, Duane L. Mitchell, being over 18 years of age and not a party to this case,
hereby certify that on December 2, 2019, I caused to be served by U.S. Postal
Service, Priority Mail, pOstage prepaid, the enclosed Application for an Extension of
Time to File a Petition for a Writ of Certiorari to the Minnesota Court of Appeals in
the above proceeding on:
Kathleen O'Connor, Esq.
O'Conner Law and Mediation PLLC
1500 McAndrews Road West, Suite 104
Burnsville, MN 55337
Attorney for Respondent
I also certify that all parties required to be served have been served.

December 2, 2019

